CERTIFICATE
The undersigned certifies the following:
Writ and Format:
• The word count excluding appendices is about 3,100 which is within the allowed
9,000.
• The format adheres to Rule 33.1; wherein, based on a phone conversation with a
representative of the clerk's office, metal stables are allowed with the saddle stitch
provided a tape is placed over the staples.
• The format adheres to Rule 14.1
Service of Copies
• The lead attorney of the Respondent (Russell Jones) was provided three Rule 33.1
booklet copies of the Writ of Certiorari as mailed by US Post on July 31, 2019 at
Posinelli PC, 900 W. 48th Place, Suite 900, Kansas City, MO 64112-1895. In
addition, electronic copies were sent by email to Attorneys Russell Jones, Dan
Cranshaw, and Paul Maguffee on July 31, 2019 at rjones@polsinelli.com,
dcranshaw@polsinelli.com, and maguffeep@umsystem.edu. n
/s/ Galen J. Suppes
Galen J. Suppes, Petitioner Pro Se
4 Bingham, Columbia, Missouri 65203
Telephone: 573-673-8164
Email: suppesg@mediacombb.net

i

Additional material
from this filing is
available in the
Clerk's Office.

